November 4, 2002
Evaluation Report No. 03-005


Evaluation of the FDIC’s Corporate
Readiness Plan
                                                 TABLE OF CONTENTS


BACKGROUND ........................................................................................................................... 2

RESULTS IN BRIEF.................................................................................................................... 5

REVIEW OF KEY ELEMENTS, PLAN ASSUMPTIONS, AND

    COPS DELIVERABLES......................................................................................................... 6

   Contracting Framework........................................................................................................... 6

   Readiness Scenarios ................................................................................................................ 10

   Methodology for Determining and Addressing Staffing Gap............................................. 12

   Training Program ................................................................................................................... 15

   Plans to Rehire Former Employees....................................................................................... 17

CORPORATION COMMENTS AND OIG EVALUATION................................................. 19

APPENDIX I: OBJECTIVE, SCOPE, AND METHODOLOGY.......................................... 20

APPENDIX II: ACRONYMS USED IN REPORT ................................................................. 22

APPENDIX III: DEPLOYMENT MANAGEMENT FLOWCHART .................................. 23

APPENDIX IV: KEY PLAN ASSUMPTIONS AND COPS DELIVERABLES .................. 24

APPENDIX V: RESOLUTION AND RECEIVERSHIP

    CONTRACTING STRUCTURE ......................................................................................... 27

APPENDIX VI: CRITERIA FOR PERSONAL SERVICES CONTRACTS....................... 28
Federal Deposit Insurance Corporation                                                         Office of Audits
Washington, D.C. 20434                                                            Office of Inspector General



   DATE:                         November 4, 2002

   TO:                           John F. Bovenzi, Deputy to the Chairman and
                                 Chief Operating Officer



   FROM:                         Russell A. Rau [Electronically produced version; original signed by Russell Rau]
                                 Assistant Inspector General for Audits

   SUBJECT:                      Evaluation of the FDIC’s Corporate Readiness Plan
                                 (Evaluation Report No. 03-005)

   This report presents the results of our evaluation of the Federal Deposit Insurance Corporation’s
   (FDIC) Corporate Readiness Plan (CRP or Plan). This Plan is the Division of Resolutions and
   Receiverships’ (DRR) contingency plan for responding to a series of institution failures that
   would exceed DRR’s capacity to address with its own resources. As designed, the Chief
   Operating Officer (COO) would be responsible for activating the CRP to provide DRR with
   additional temporary resources to handle a series of significant and unexpected institution
   failures.

   The objective of our evaluation was to assess the reasonableness of the CRP. We focused on key
   Plan elements and underlying assumptions. We also determined the status of deliverables
   associated with the Plan’s completion. We did not evaluate the sufficiency of DRR staffing
   levels. Details of our objective, scope, and methodology are included as Appendix I of this
   report. Appendix II contains a list of acronyms used in our report.



   BACKGROUND

   The number of insured depository institution failures has declined substantially from the
   unprecedented levels of the 1980s and early 1990s. In 1990, 382 insured depository institutions
   failed. By 1997, the number of failures reached a low point, with only one institution failing.
   Since then, the number of failures has increased slightly (e.g., eight failures thus far in 2002).
   Figure 1 presents historical information about failed institution assets over the past decade.




                                                    2
           Figure 1: Failed Institution Assets, by Year
                                 $9,977
                       $10,000

                        $8,000

                        $6,000
            Millions




                        $4,000
                                                                                                       $2,687
                                        $1,601 $1,226                                         $1,822
                        $2,000                                                $1,592
                                                                                       $414
                                                        $233 $28      $290
                            $0
                                 1993   1994   1995   1996   1997    1998     1999     2000   2001 Through
                                                                                                    6/30/02
                                                Total Assets of Failures
           Source: Historical Statistics on Banking

The number of FDIC employees dedicated to resolution and receivership functional areas has
also declined significantly from a high of 5,989 staff in 1993 to 451 staff at the end of 2001, a
92 percent decline. Figure 2 shows how the staff assigned to resolution and receivership
functions has decreased over the past decade.

           Figure 2: Annual Total FDIC and Resolution and Receivership Staffing Levels


                       16,000
                       14,000
                       12,000
                       10,000
                        8,000
                        6,000
                        4,000
                        2,000
                           0


                                                FDIC Staff        DRR Staff

           Source: DRR Activity Report –2001.

While the number of failures and DRR staffing has decreased, some recent failures have
presented unique or difficult circumstances, which required significant DRR or contractor
resources. For example, Hamilton Bank, N.A., required a closing team of 128 DRR staff, due to
the bank’s numerous branch locations.1 Other resolutions have required specialized contractor

1
    Hamilton Bank, N.A. closed on January 11, 2002 with total assets of $1.4 billion.
                                                              3
resources to perform certain functions, such as the servicing of credit card portfolios2 required
under the NextBank resolution.3

DRR began contingency planning in the mid-1990s, primarily in preparation for the Year 2000
date change. In 1999, DRR conducted its Firehouse Planning Analysis (Firehouse Analysis) to
develop organizational structures and staffing levels needed to handle the resolution and closing
of institutions in the future. Also in 1999, the FDIC Board of Directors granted expenditure
authority for a contracting framework to address resolution and receivership contracting needs
for the next 5 years. However, DRR also identified a need for temporary resources in the event
of a series of significant and unexpected bank failures until the FDIC could get contractors in
place and operating efficiently. DRR developed the CRP as a contingency plan to address this
need.

The FDIC assigned the CRP project to a Readiness Task Group (RTG)4 to: (1) determine if
sufficient internal resources exist within the FDIC to effectively respond to a significant and
unexpected increase in failure activity and (2) identify how those resources would be deployed to
assist DRR. DRR formalized the Plan as a Corporate Operating Plan System (COPS) project.5
The project has six deliverables and was completed in September 2002. Table 1 presents steps
that the RTG took in developing the Plan.

        Table 1: Corporate Readiness Plan Methodology

    Plan Methodology
    •    Analyzed workload requirements and staffing shortfalls under three institution failure scenarios.

    •    Performed a skill set analysis of DRR and non-DRR positions to identify comparable skills
         required for DRR functions within other divisions and offices.

    •    Worked with other divisions to identify measures for making non-DRR staff available to assist
         DRR on a short-term basis (i.e., not to exceed 90 days).

    •    Researched the possibility of rehiring former FDIC employees under individual contracts to
         provide DRR with augmented resources without impacting the FDIC’s supervision mission.

        Source: Corporate Readiness Plan.

The RTG concluded there were sufficient resources available to assist DRR on a short-term basis
until DOA and DRR could get contractors hired and in place. Most of those resources would
come from the Division of Supervision and Consumer Protection (DSC) and would be available
for no more than 90 days. Appendix III contains a flowchart of how staff would be deployed and
managed in the event that the Plan was activated. Table 2 presents the overall Plan conclusions.


2
  Credit card servicing includes activities such as processing, collecting, and recording account payments; issuing
replacement cards; and processing and mailing cardholder statements.
3
  NextBank closed on February 7, 2002 with total assets of $700 million.
4
  The RTG was an interdivisional task force led by the Division of Supervision (DOS), with representatives from the
DRR and the Division of Compliance and Consumer Affairs (DCA). The FDIC merged DOS and DCA into the
Division of Supervision and Consumer Protection (DSC) on June 30, 2002.
5
  COPS is an FDIC system for tracking FDIC projects related to corporate strategic areas, goals, and objectives.
                                                         4
        Table 2: Corporate Readiness Plan Conclusions

    Plan Conclusions
    •   In terms of both the skills and volume of available personnel, the FDIC has sufficient resources
        to successfully respond to a significant and unexpected increase in institution failures.

    •   Effective prioritization and deferral of divisional workloads will be crucial in providing
        assistance to DRR on an interim basis while it activates its longer term strategies for augmenting
        its personnel with contractors, term and temporary employees, and other resources.

    •   The timely deployment of available resources to DRR will be essential to fulfill all FDIC
        strategic program areas.

    •   Plan implementation may present substantive risks if significant resources are diverted from
        other mission-critical functions for an extended period of time.

        Source: Corporate Readiness Plan.




RESULTS IN BRIEF

The CRP is reasonable and provides sufficient flexibility for the FDIC to handle a relatively
wide range of institution failures without causing significant disruption to other aspects of the
Corporation’s mission. Based on our evaluation work, we reached the following conclusions:

•   The Division of Administration (DOA) has a contracting framework in place for addressing
    current and future resolution and receivership activity, and DOA has awarded contracts
    timely under that framework to assist DRR with institution failures occurring during our
    period of review (2001 and 2002).

•   Institution failure scenarios developed to determine CRP staffing requirements were
    reasonable and based on historical FDIC experiences.

•   The RTG employed a reasonable methodology for assessing staffing needs and in
    determining a staffing gap.

•   DSC is committed to providing staff to DRR on a temporary basis in the event of CRP
    activation. Further, DRR and other FDIC divisions have established headquarters and
    regional points of contact for implementing the Plan, and DRR has developed an automated
    system to manage and track staff assigned to assist with closing activities.

•   DRR has developed a cross-training program for all DRR staff and non-DRR staff assigned
    to assist with resolutions. DRR’s plans to ensure that employees receive the required training
    are on track and reasonable.

•   DRR needs to further research the possibility of rehiring former FDIC employees under
    individual contracts. Such contracts would have to be carefully structured to avoid the use or
    appearance of personal services contracts which are prohibited.
                                                         5
We verified that DRR completed the COPS project in September 2002. DRR conducted a
readiness simulation with Plan participants and briefed the FDIC Operating Committee on Plan
features. DRR intends to periodically test the Plan and make changes as necessary. We support
DRR’s efforts to periodically update the Plan and encourage DRR to ensure that the CRP reflects
current staffing resources and levels of commitment from other divisions, such as DSC.



REVIEW OF KEY ELEMENTS, PLAN ASSUMPTIONS, AND COPS DELIVERABLES

We identified key Plan elements that we considered vital to the CRP’s conclusions and success,
if activated. We characterized the following as key Plan elements:

•   Contracting Framework              • Training Program
•   Readiness Scenarios                • Plans to Use Former Employees
•   Methodology for Determining
    and Assessing Staffing Gap

We assessed the reasonableness of each of the above key elements. We concluded that these key
elements were in place. Detailed discussions of each element are included in the body of this
report.

The RTG made a number of assumptions in developing the Plan. We concluded that those
assumptions were reasonable. Finally, we also verified that DRR had completed each of the
COPS deliverables. Appendix IV contains the results of our review of the Plan assumptions and
COPS deliverables.


Contracting Framework

The most critical element to the FDIC’s readiness is its ability to quickly hire contractors to
assist with resolution and receivership activities. The CRP is based on the FDIC having
contractors in place within 90 days of CRP activation. Thus, the quicker the FDIC can engage
private sector resources, the less impact CRP implementation would have on non-DRR
functions. We verified that the FDIC has a reasonable contracting framework in place for
resolution and receivership activities. Further, the FDIC has signed agreements with contractors
for selected engagements. We concluded that DOA was able to award contracts, on average, in
about 16 days under this framework to assist DRR with failures occurring during 2001 and
through June 30, 2002.

In July 1999, the FDIC Board of Directors granted expenditure authority of approximately
$509 million to award 31 contracts covering a 5-year period (1999 Board Case). The contracts
were to advise and support the franchise and asset sales efforts for failed institutions, service and
maintain assets until they could be sold, and support receivership activity. The 1999 Board Case
granted expenditure authority for contracts falling into two categories:




                                                  6
•   Core-related: $460 million for contracts required to support work in process and to address
    estimated core workloads6 and

•   Contingency-related: $49 million to award contingent contracts that would be needed
    immediately if failures unexpectedly increased in size or number.

Twenty-three of the 31 contracts replaced existing DRR contracts. Further, 61 percent of the
core-related amount represented direct expenses for asset servicing, particularly owned real
estate expenses such as maintenance, taxes, and insurance, that would be incurred regardless of
whether the assets were managed or serviced in-house or through contracts. Table 3 presents
5-year expenditure authority amounts for the contracts approved in the 1999 Board Case.

Table 3: 5-Year Contract Expenditure Authority Amounts
Contract Description                                         Core             Contingency      Total
                                                             Related          Related
Owned Real Estate Property Management                        $         179    $        -       $    179
Owned Real Estate Pool Management                                      122             -            122
Investment Banker                                                        -            24             24
Property Tax Consulting Services                                        22             -             22
Financial Advisory Services for Securities Portfolios                   20             -             20
Phase I Environmental Services                                          17              -            17
Field Imaging Services                                                  17              -            17
National Residential Mortgage Loan Servicer                             12              -            12
Loss Share Assistance                                                     -           11             11
Asset Data Standardization Services                                      9              -            9
Environmental Advisory Services                                          8              -            8
Receivership Assistance Contract                                          -            8             8
Commercial and Industrial Loan Servicing                                  -            4             4
Failed Institution Staffing                                               -            2             2
Other                                                                   54              -            54
Totals                                                       $         460    $       49       $    509
Source: July 1999 Board Case.



The 1999 Board Case also included a schematic depicting where each contract fits in the
resolutions and receivership process. That schematic is presented in Appendix V. We focused
our evaluation work on contingency-related contracts occurring at the time of resolution, such as
the Failed Institution Staffing and Field Imaging Services contracts and the Receivership
Assistance Contract (RAC).




6
 The Division of Insurance and Research (DIR) develops a range of corporate workload assumptions annually,
which are used for core workload and staff planning. DRR typically staffs towards the lower end of the core
workload range and uses the high end of the workload range to estimate its potential contracting needs and expenses.
This annual planning process is a cornerstone for the FDIC budget.
                                                         7
         Basic Ordering Agreements

The 1999 Board Case supported the use of standard statements of work (SOW) and Basic
Ordering Agreements (BOA) to ensure that contractor resources were available when needed. A
BOA is a written agreement between the FDIC and one or more firms and is used to respond to
multiple orders for contracts with requirements that are generally similar in nature and repetitive.
The BOA contains terms and conditions that will apply to FDIC-issued task orders, a description
of the services to be provided, and the method for the pricing and issuing of orders under the
agreement. A BOA is not a contract, because it does not contain consideration or require that the
FDIC place any orders against it. The FDIC issues task orders against the BOA when and if a
need for contract services arises. We verified that DOA awarded BOAs for most of the
contingency-related contracts proposed in the 1999 Board Case. Table 4 presents information
about selected BOAs.

Table 4: Contingency-Related Contracts with BOAs
Contract Description          Award Date/Term                        Awardees   Task Orders Awarded
Failed Institution Staffing   December 1999                             4                 2
                              One base year, four 1-year options

Field Imaging Services        March 2000                                2                0
                              Two base years, three 1-year options

Receivership Assistance       December 1999                             7                7
Contract                      Three base years, two 1-year options

Source: Review of DOA information.

DOA has awarded two task orders under the Failed Institution Staffing contract. The largest was
a $32 million task order associated with the NextBank failure, to screen, hire, and manage 600
failed institution personnel to continue servicing NextBank’s credit card portfolios. To date,
DOA has not awarded any task orders under the Field Imaging Services contract.

DOA awarded BOAs to seven firms for the RACs. DOA also awarded one task order to each
firm for the purpose of providing mandatory training sessions to selected key and/or senior
contractor personnel. To date, the FDIC has not issued RAC task orders for resolution activities
associated with a particular institution resolution.

The 1999 Board Case identified the RAC as an essential resource that could be used to quickly
leverage current staff to handle workloads above core estimates and to provide skills that may be
needed for unusual assets or situations. The RAC is a multi-purpose contract covering all
activities related to an institution closing. Closing activities fall within two major areas of
responsibility: receivership management and financial management, as shown in Table 5. RAC
task orders would address one or more of the functional areas presented in Table 5 depending on
the staffing needs of the particular resolution.




                                                        8
Table 5: Receivership Assistance Contract SOW
Receivership Management                           Financial Management
Settlement Services                                Pro Forma
Claims Services (Creditor and Depositor Claims)    Asset Servicing
Asset Management Services                          Conversions
Administrative Services                           •    FDIC External Servicer
Branch/Loan Production Office Services            •    FDIC National Processing System
FF&E, Facilities, Personnel                        Post Resolution Operations Management
Records Management                                •    Cash management
Ombudsman/Customer Service                        •    Cash disbursements (Accounts Payable)
Investigations Support                            •    Interim servicing
Systems Services
Source: OIG review of RAC SOW.

DOA and DRR have also established an oversight management program. Usually, the DRR
Receiver-in-Charge for the closing will be the oversight manager (OM) for the RAC contract.
We verified that DRR has a monitoring plan in place for the RAC contractors. The monitoring
plan includes a requirement for the OM to contact RAC awardees—regardless of whether they
have been awarded a task order—at least quarterly to confirm the firm’s status and make sure
key personnel are still employed and available.


        Delegations of Authority

In June 2002, the FDIC Board of Directors extended the DRR Director’s contract expenditure
authority from $2 million per contract to 5 percent of the failed institutions’ total assets. Total
assets are defined, per this expenditure authority, as the amount reflected on its most recent Call
Report at the time the Director (or designee) requests contracting actions from the DOA under
this authority. DOA and DRR staff informed us that this increase was needed and should allow
DRR to be more strategic in designing resolution strategies. We agree that tying the DRR
Director’s delegated authority to the size of a particular resolution will provide the Director with
more flexibility in determining how best to resolve the failure.


        Contracts Awarded for Specific Failures

We concluded that DOA has been able to quickly award contracts associated with institution
failures. We worked with DOA staff to identify contract services required for institution failures
occurring between January 1, 2001 and June 30, 2002. We concentrated our review on contracts
resulting from the 1999 Board Case. Table 6 provides contract award time frame information
about contracts associated with individual failures.




                                                     9
Table 6: Contract Award Time Frames
Contract /Task Order            Date        Elapsed Days        Compensation        Failed Institution
(Description of Svs)            Awarded     to Award            Ceiling             Involved
Individual Contracts
Financial Advisory Services       2/11/02        31 days        $15 million         NextBank
Investment Banker                 1/04/02        25 days        $5 million          Hamilton Bank
Financial Sales Advisor          12/27/01        17 days        $5 million          Hamilton Bank
Financial Advisory for            8/13/01        12 days        $5 million          Superior Bank (a)
Securities Portfolios
Basic Ordering Agreements
Failed Institution Staffing       2/20/02         4 days        $32 million         NextBank
(BOA—Task Order Awarded)
Failed Institution Staffing       5/28/02         4 days        $600,000            Superior Bank
(BOA—Task Order Awarded)
Source: OIG review of contract files.
Note a: Superior Bank, Federal Savings Bank, failed on July 27, 2001 with total assets of $1.8 billion.

We concluded, on average, that DOA was able to award contracts within 16 days of issuing a
request for proposal. We also verified that DOA followed selected APM requirements for those
contracts, such as developing a solicitation list, responding to offeror questions, and convening a
technical evaluation panel for making a best value determination. Based on DOA’s historical
experiences in awarding contracts, we concluded that DOA’s contracting framework provides a
responsive and flexible resource for addressing future DRR contracting needs. However, the
ultimate success of the contracting framework will be dependent on the quality of contract work
received. Therefore, an emphasis on a strong oversight management program is critical.


Readiness Scenarios

The Division of Research and Statistics (DRS)7 prepared three institution failure scenarios to test
the ability of the FDIC to respond to various levels of stress. The institution failure scenarios
were based in part on historical experience and on Financial Risk Committee (FRC)8 data. DRS
designed the scenarios to be realistic given a specific number of failures, amount of failed
institution assets, and deterioration of CAMELS ratings.9

We interviewed the official who prepared the failure scenarios to understand the methodology
for each scenario. We also reviewed documentation supporting scenario assumptions. Each
failure scenario employed 1999 FRC projections that equated to about 14 institution failures
annually and the following events:

•   Scenario I was a 2-year scenario which tested the FDIC’s ability to respond to the FRC
    projections of 14 failures plus one large institution failure with assets of around $2.5 billion
    occurring in year 2. DRS researched historical institution failures and used information from



7
  On June 30, 2002, the Division of Insurance merged with DRS to become the Division of Insurance and Research.
8
  The FRC is an internal committee comprised of staff from DIR, DSC, DRR, and the Division of Finance. Among
other things, the FRC develops projections of failed assets of insured institutions.
9
  Uniform Financial Institutions Rating System. CAMELS is an abbreviation for Capital Adequacy, Asset Quality,
Management, Earnings, Liquidity, and Sensitivity to Market Risk.
                                                        10
    Cititrust, a state non-member bank that failed in 1991. DRS inflated Cititrust’s balance sheet
    to 1999 dollars, which yielded total assets of $2.3 billion.

•   Scenario II was also a 2-year scenario, which tested the FDIC’s ability to respond to a
    concentration of failures in a relatively short period of time. DRS researched the historical
    frequency of institution failures to identify a situation where the FDIC experienced an
    uneven distribution of failures across a particular year. During 1994, the FDIC experienced
    15 institution failures, 13 of which occurred in the 2nd and 3rd quarters of the year. DRS used
    the balance sheet assets from the 15 failures occurring during 1994 as the workload for
    scenario II.

•   Scenario III was a 4-year scenario which simulated a major regional downturn in the real
    estate sectors of seven metropolitan statistical areas (MSAs). This scenario was based in
    large part on the real estate recession that took place in New England during the early 1990s.
    DRS identified seven depressed MSAs using actual real estate trend data. DRS then used a
    real estate stress test model to predict future CAMELS ratings for existing institutions in
    those seven MSAs. Finally, DRS assigned a failure rate based on the FDIC’s historical
    experience during the New England crisis.

Table 7 compares the characteristics of each of the three failure scenarios.

Table 7: 1999 FRC Projections and DRS Scenarios Used in the Corporate Readiness Plan
            Description                                                  Year               Total       Total Assets
Projection/                                                 1        2     3       4        Failures   (in Billions)
Scenario
FRC         1999 Financial Risk Committee Projections:        14       14      -       -          28   $   2.75
            --$2 billion in Bank Insurance Fund failures
            --$750 million in Savings Association Insurance
            Fund failures
I           Impact of the failure of a large bank:            14       15      -       -          29   $   5.09
            --FRC projections in year 1
            --One $2.3 billion failure in year 2
II          Impact of a concentration of failures in one      14       15      -       -          29   $   2.67
            quarter:
            --FRC projections in year 1
            --Historical 1994 failures in year 2
III         Impact of a regional real estate downturn:        14       14     14       51         93   $ 16.45
            --FRC projections in years 1, 2, 3, and 4
            --41 failures in year 4 associated with a real
            estate downturn
Source: Corporate Readiness Plan, DRS supporting file documentation.

The FDIC’s Division of Insurance and Research (DIR) develops annual workload projections
that divisions such as DRR use to determine core staffing needs. We compared the CRP
scenarios to current FDIC Corporate Workload Assumptions to assess whether the CRP
scenarios were reasonable and remain valid in light of the FDIC’s current institution failure
projections. Table 8 presents the FDIC’s Corporate Workload Assumptions for 2003 through
2007. We concluded that the number of institution failures contemplated under CRP Scenarios I
and II were within the projected institution failure levels. For example, Scenarios I and II
assume 14 to 15 failures per year, which is consistent with the Corporate Workload Assumptions
presented in Table 8.

                                                      11
         Table 8: Corporate Workload Assumptions for 2003-2007
                                                                                Total Assets
                       Year                  Projected Failures
                                                                               ($ in Millions)
                       2003                           16                           $5,883
                       2004                           15                           $6,125
                       2005                           15                           $6,500
                       2006                           15                           $6,750
                       2007                           14                           $7,063
         Source: Division of Insurance and Research.

In addition, we reviewed DSC’s 8-Quarter report, covering the period July 1, 2002 through
June 30, 2004, to understand DSC’s projected failure activity.10 Due to its confidential nature,
we are not presenting detailed information about the 8-Quarter report projections in this report.
However, the report identified two large institutions as a having a medium probability of failure
during 2003. The failed assets associated with those two institutions would exceed the failed
assets total of $16 billion presented in Scenario III as well as Scenario I, which modeled the
impact of a large institution failure. With the exception of these two institutions, the projected
number of failures and corresponding asset balances listed on the 8-Quarter report were within
the levels considered under Scenarios I, II, and III. DRR indicated that it is working on separate
initiatives to address the resolution of large institution failures.11 We did not review those
separate initiatives as part of our evaluation.


Methodology for Determining and Addressing Staffing Gap

The RTG processed the readiness scenarios through an internal staffing model to determine
staffing needs and calculated a staffing gap that would need to be addressed by non-DRR
resources. The RTG analyzed all positions within the FDIC, identified those with skill sets
compatible with DRR functions, and outlined a process for temporarily deploying resources from
other FDIC Divisions to address the staffing gap. DRR also established headquarters and
regional points of contact in each Division, developed a tracking system for monitoring
resolution staffing assignments, and determined the level of training that non-DRR staff would
require. The RTG performed a simulation of the CRP in September 2002.


         DRR’s Firehouse Analysis

In 1999, DRR published its Firehouse Analysis, which developed DRR staffing projections and
organizational structures for handling the resolution and closing of institutions in the future. The
Firehouse Analysis employed a staffing model based on DRR’s historical experience in resolving
institutions of various sizes to estimate quarterly staffing levels for DRR functional areas. The


10
   The 8-Quarter report lists those institutions that DSC assigns a low, medium, or high probability of failure over
the next 8-quarter time frame. Any institution on this list has a greater than 50 percent probability of failing over the
next 8 quarters. DSC updates the 8-Quarter report on a weekly basis.
11
   Those initiatives include DRR’s contingency planning efforts for large banks and the megabank project.
                                                           12
model also employed workload factors to optimize the use of human resources, account for the
fungibility of staff, and reflect economies of scale as asset balances increased.
The Firehouse staffing level included 251 staff related to DRR’s four major functional areas—
resolutions, asset marketing, asset management, and receivership operations—that would be
required to resolve a given number of failures.12 DRR indicated that it could provide up to
10 closing teams with this staffing level and deploy those teams concurrently. Prior to
requesting staff from other divisions, DRR would maximize its supply of available staff by
temporarily delaying work on non-closing functions.


        Corporate Readiness Plan Staffing Gap

The RTG used the Firehouse staffing model to estimate CRP staffing requirements. The RTG
ran the model using the DRS failure scenarios discussed in Table 7 to arrive at estimated
quarterly staffing needs. The RTG then subtracted out DRR’s Firehouse staffing level to arrive
at a “staffing gap.” This staffing gap represented the non-DRR resources required to resolve the
scenario failures. The RTG determined the staffing gap for each quarter of the period of
analysis. Table 9 presents, for each scenario, the RTG’s staffing projections for the quarter with
the greatest staffing gap.

        Table 9: Analysis of Staffing Gap
           Scenarios                        Peak Staffing Gap            Full-Time Equivalent
                                                                             Staffing Gap
          I                                    351                                288
          II                                   618                                371
          III                                 1,576                              1,234
        Source: DRR supporting documentation.

The Peak Staffing Gap column in Table 9 represents the staffing gap assuming the worst case
scenario that all failures occurred on the first day of each quarter. DRS determined that it was
highly improbable that all failures would occur on the same day. Accordingly, the RTG also
calculated a Full-Time Equivalent (FTE) Staffing Gap estimate to optimize staffing on a
quarterly basis. The FTE staffing estimate recognizes that resolutions staffing needs would
decline as DRR activities subside throughout the quarter.


        Non-DRR Staffing Commitments

The RTG performed an analysis of DRR closing functional areas and non-DRR position
descriptions to identify comparable skills within other FDIC Divisions and Offices. The analysis
was centered on the four primary DRR functional areas: resolutions, asset marketing, asset
management, and receivership operations. The RTG determined that non-DRR staff would not
fill certain functions, such as Receiver-in-Charge and Closing Manager, which required
substantial training and experience. The RTG identified 98 position descriptions that possessed



12
  The Firehouse Analysis was based on an estimated annual failure rate of three small institutions ($50 million each
in total assets) and one large institution failure ($1 billion in total assets).
                                                        13
compatible skill sets for performing DRR functions. Most of those positions were in DSC and
DOA.

The RTG discussed the Plan with division and office managers and determined, in a crisis
situation, that 1,407 non-DRR staff could be made available to assist DRR on a temporary basis.
However, DSC-Risk Management reduced its staffing commitment by 54 staff in March 2002
and DSC-Compliance reduced its staffing commitment by 133 staff in October 2002, bringing
the revised total non-DRR staffing commitment to 1,220 staff. We concluded that the 1,220 staff
would be sufficient to address the staffing gap requirements for Scenarios I and II and would be
within 14 staff of the FTE staffing gap under Scenario III. The revised staffing commitment
would not be sufficient to meet the peak staffing gap requirements under Scenario III; however,
DRS determined that this scenario was highly improbable. Table 10 presents a breakout of the
1,220 staff by division.

Table 10: Internal Resource Availability
Division                                                                 FTEs Available        Percentage
                                                                          for 90-days           of Total
DSC-Risk Management (formerly DOS)                                            734                 60%
DSC-Compliance (formerly DCA)                                                 166                 14%
DOA                                                                           149                 12%
Division of Information Resources Management                                  100                  8%
DIR (formerly DOI and DRS)                                                    53                   4%
Office of the Ombudsman                                                       11                   1%
Office of Internal Control Management                                          7                   1%
Total                                                                        1,220               100%
Source: Corporate Readiness Plan.

As shown in Table 10, most resources would come from DSC. In order to make staff available
to DRR, DSC-Risk Management established Contingency Examination Program guidelines that
would streamline the examination process for certain institutions while DSC is assisting DRR.
DSC-Risk Management would also take other measures to provide staff as shown in Table 11.13




13
  The Plan describes the DOS function separately from the DCA function because the Plan was developed prior to
the reorganization of DOS and DCA into DSC-Risk Management and DSC-Compliance, respectively. The Plan
provided a similar process for providing DCA resources.
                                                      14
Table 11: Summary of Available DSC-Risk Management Examiner Resources
                                                                                      Percentage
Initiative                                                             FTEs
                                                                                       of Total
Contingency Exam Procedures                                              103             11%
Limiting specialty exams                                                 385             42%
Reducing examiner training by 50 percent                                 230             25%
Reducing details and special projects by 50 percent                      202             22%
    Sub-Total                                                            920             100%
Offset by: Increase in 3, 4, & 5 safety and soundness examinations      (180)
         Increase in exam backup authority                               (83)
   Sub-Total                                                             657
DSC-Risk Management will also provide:
Case Managers                                                           20
Regional Office professional staff                                      28
Washington Office professional staff                                    29
   Total FTEs for a 3-month period                                      734
Source: DOS Readiness Plan.

We interviewed senior DSC officials who confirmed their commitment to the Plan and indicated
that as long as DSC staff are utilized for a period not-to-exceed 90 days, DSC will be able to
continue to successfully meet its bank supervision responsibilities. DSC noted that staffing
levels change and stressed the need for DRR to revisit the Plan’s staffing levels semiannually to
adapt to any changes.

In order to address how non-DRR staff would be identified and deployed in the event of Plan
activation, DRR developed headquarters and regional points of contact and an automated system
to manage and track staff assigned to institution closings. We verified that DRR had identified
specific Washington closing coordinators and regional office contacts for each DSC region. In
addition, we observed a demonstration of DRR’s Overarching Automation System (OASIS) and
confirmed that the system is in place and is being used for tracking the status of DRR staff
assigned to institution closing activities.

DRR conducted a simulation of the CRP in mid-September 2002. DRR indicated the simulation
was successful. DRR also plans to perform periodic testing of the Plan to ensure the appropriate
FDIC personnel are familiar with the processes needed to effectively deploy potentially large
numbers of non-DRR personnel. We support DRR’s efforts to test the Plan. Further, given
revisions to non-DRR staffing commitments we encourage DRR to periodically update the Plan
to ensure it reflects existing staffing resources and levels of commitment from other Divisions,
especially DSC.


Training Program

Training is an integral part of developing a flexible resolutions workforce and an important
component of the Plan. According to the DRR Director, long-range planning for readiness
started about 6 years ago when DRR initiated steps to move DRR from a composition of
geographically diverse specialists to an organization of generalists. To that end, DRR developed
a Cross-Training Program to broaden the knowledge and skills of current professional employees
                                                        15
in all of the Division’s functional areas (i.e., Franchise and
Asset Marketing, Asset Management, and Receivership              Available Courses Offered under
Management). The Cross-Training Program is comprised of a        DRR’s Cross-Training Program
series of Computer-Based Instruction (CBI) and classroom          Affordable Housing
instruction training courses. DRR requires its employees to       Claims
complete a minimum of four courses annually to ensure they        Collateral Release
possess the necessary knowledge and skills to successfully        Franchise Marketing
perform their assigned functions at a financial institution       Investigations
closing. The accompanying inset presents current DRR              Loan Management/Sales
courses offered by DRR’s Cross-Training Program.                  Non-Asset Defensive Litigation
                                                                  Receivership Liability System
Under the Plan, most non-DRR staff assigned to assist with        ORE Management/Marketing
closing work would receive a CBI training course once their       Other Assets
assignments on a closing were made (i.e., on a “Just-In-Time”     Receivership Benefits
basis). The CBI course would be consistent with the               Securities Marketing
functional area to which the staff is assigned. Non-DRR staff     Settlements
will have about 1-4 days to complete the course before            Subsidiaries
assisting with the closing. DRR assumes that any non-DRR          Terminations
staff assigned to assist DRR in an actual closing would be        Standard Asset Valuation
closely supervised by more experienced DRR personnel for            Estimation Methodology
most closing tasks.

DRR determined that the only closing function that required classroom training was in the claims
area, because it involves insurance determinations and is considered the most complex of all
closing functions. In order to develop claims-related work competencies of non-DRR staff who
would assist DRR on a closing should an emergency arise, DRR developed a claims training
program that consists of the following:

•   Basic/Intermediate Claims 3-day CBI course. Figure 3 presents an excerpt from the CBI
    course.
•   Receivership Liability System 1-day CBI course – the automated system for tracking and
    processing insurance and general creditor claims.
•   Advanced Claims – instructor-led, classroom training; 3.5-days training.
•   On-the-job assistance with an actual closing.




                                               16
       Figure 3: Excerpt from DRR’s Claims-Basic/Intermediate CBI Course




       Source: Claims CBI CD-ROM

DRR issued an Expression of Interest (EOI) to non-DRR staff for volunteers to participate in the
claims training program. DRR made an agreement with FDIC Division Directors to limit
participation to 78 volunteers. Most of the volunteers are DSC examiners. According to the
Plan, over the course of a 2- to 3- year period, all volunteers would complete the training courses
and be available to perform on-the-job assistance on an actual institution closing.

We reviewed training documents and verified that approximately two-thirds of the EOI
volunteers have completed advanced claims training or have prior insurance determination
experience and are prepared to augment the DRR claims staff on an actual closing. Nine of the
75 have completed all four elements of the claims training program. DRR tries to include two of
the EOI volunteers on each institution closing, thus the number of volunteers attending closings
is limited by the number of actual institution failures.

We concluded that DRR’s training program is in place and that DRR is making progress in
training non-DRR staff in the claims area. By making the training for DRR staff mandatory,
developing cross-training opportunities for non-DRR personnel, and introducing contingent
contractors to the training requirements, DRR has added to the flexibility of the Plan’s ability to
deploy trained and competent staff to assist handling an increased and unexpected level of failure
activity.




                                                17
Plans to Rehire Former Employees
                                                            Retirees: Interested in Helping the FDIC Close
As part of the original COPS project, DRR researched        Institutions?
the possibility of creating and maintaining a database of
former employees who would provide assistance to            The FDIC has developed a Corporate Readiness Plan
                                                            to provide short-term assistance to deal with a
DRR during an insured institution failure crisis until      significant and unexpected increase in bank failures. If
DOA could bring contractors on board. The DRR               this were to occur, DRR would need help with pre-
Director indicated that he would prefer to use former       closing and closing activities. The plan calls for DRR
employees before using non-DRR staff from within the        to "borrow" approximately 1,400 employees from
FDIC (especially from DSC) in order to avoid                certain divisions in the Corporation.
disruption to the Corporation’s bank supervision            In addition, DRR is creating a database of retirees who
mission.                                                    would be willing and able to provide assistance to
                                                            DRR during an emergency. If you are a retiree, or plan
To assess the level of the former employees’ interest,      on retiring soon, and are interested in participating in
DRR placed an ad in a copy of the FDIC News (see            closing activity, tell us where to contact you for a
                                                            future assignment if the need arises. Please provide
inset). According to DRR, the response to this ad was       your name, address, telephone number, and personal
overwhelming, with more than 215 interested                 e-mail address (if you have one) to:
respondents. DRR plans involve establishing three
labor rate categories: managerial, professional, and                 [name and address]
administrative/technical.
                                                            The FDIC may use personal services contracts for
                                                            retirees so volunteering for these assignments
DRR completed its stated COPS project objective of          would not affect pension benefits. If retirees are
researching the possibility of hiring former employees      awarded a contract, they would not be considered
and began a separate project to determine how to bring      federal employees.
those former employees on board. DRR was working
with DOA to resolve several outstanding matters before      If you have any questions, please call [name and
the program can be fully implemented. As of                 telephone number].
June 2002, DRR had suspended work on the project            Source: FDIC NEWS, November 2001.
because of more pressing matters but intends to
continue researching the area in the near future.

We interviewed senior DOA officials familiar with DRR’s plans to rehire former employees.
We noted a few differences between DOA’s and DRR’s views on how such a program would
work as presented in Table 12.




                                                18
Table 12: DRR and DOA Approaches to Rehiring Former Employees

DRR Approach                                                      DOA Approach
Advertised use of personal services contracts for                 Personal services contracts are prohibited according to FDIC
annuitants in the FDIC News.                                      Policy.
Prefers to use former employees before using non-DRR              Cautions against using contractors over internal staff due to
employees (especially DSC).                                       Union concerns (Article 17 of the NTEU Bargaining Unit
                                                                  Agreement).
Application process should be highly selective to ensure          Cautions against being too highly selective in the application
the best match of skills with necessary tasks.                    process in order to enhance fair competition.
Anticipates three labor categories with three standardized        Anticipates non-standardized labor rates in order to
labor rates for each category.                                    compensate contractor for the level of experience offered.
Anticipates pursuing a waiver from the 5-year                     Anticipates a waiver as well, no difference in approach.
reemployment restrictions found in the FDIC’s Voluntary
Separation Incentive Program.

Prefers to utilize former FDIC employees only.                    Anticipates researching use of former employees from other
                                                                  financial institution regulatory agencies as well as the FDIC.
Source: OIG interviews with DOA and DRR.


Of most significance is DRR’s advertised use of personal services contracts. Under the FDIC’s
APM, personal services contracts are prohibited. Personal services contracts are those contracts
that establish an employer/employee relationship between the Corporation and the contractor’s
employees. These prohibited personal services contracts arise when the terms of the contract or
actual contract performance create a situation when FDIC employees are providing day-to-day
supervision of contractor employees or when the contractor’s employees perform or engage in an
inherent function of the Corporation. Appendix VI contains APM excerpts relating to prohibited
personal services contracts. DOA officials expressed concern that DRR’s FDIC News article
advertised personal service contracts. DOA indicated that it would not enter into contracts with
individuals that could be perceived as personal services contracts.



CORPORATION COMMENTS AND OIG EVALUATION

We issued a draft version of this report on October 9, 2002. DRR provided e-mail comments to
the draft report on October 23, 2002. DSC also provided comments via e-mail on
October 21, 2002. We revised our report, where appropriate, to address DRR and DSC’s
comments. DRR also provided additional information pertaining to non-DRR staffing
commitments on October 29, 2002. We updated our final report to reflect this new information.

With respect to plans for rehiring former employees, DRR clarified that it has been working in
conjunction with DOA in an evolving approach to rehiring former employees. DRR indicated
that it has no intention to use personal service contracts or to use contractors at institution
closings that could take work away from DRR employees. DRR noted that it worked closely
with the National Treasury Employees Union during the CRP project.

                                                             19
                                                                                              APPENDIX I


OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our evaluation was to assess the reasonableness of the Plan. Our evaluation
focused on the key Plan elements, underlying assumptions, and COPS deliverables. Table 13
presents examples of each.

       Table 13: Examples of Key Elements, Plan Assumptions, and COPS Deliverables
      Type                  Example
      Key Elements         •    Contracting Framework
                           •    Readiness Scenarios
                           •    Training Program
      Plan Assumptions     •    The Plan will only be implemented for significant and unexpected
                                increases in failure activity.
                           •    Readiness support period is not expected to exceed 90 days.
                           •    Personnel assigned will receive CBI training prior to deployment.
      COPS Deliverables •       Establish lines of authority.
                           •    Develop personnel tracking system.
                           •    Simulate and test Plan.
       Source: OIG generated.

To accomplish our objective, we performed the following work:

•   Reviewed the Corporate Readiness Plan and supporting documentation.

•   Interviewed officials from DRR, DSC, DOA, and DIR who were involved with or
    knowledgeable about the Plan.

•   Identified key Plan elements and underlying Plan assumptions.

•   Verified the status and completion of the deliverables required under the COPS project.

•   Reviewed DOA’s contracting framework and files for contracts associated with recent
    failures.

•   Reviewed DRS failure scenarios and supporting documentation.

•   Reviewed FDIC Corporate Workload Assumptions and DSC’s 8-Quarter report.

•   Reviewed FDIC core staffing documents for DRR and DSC.

•   Reviewed DSC’s Contingency Exam Procedures.

•   Observed a demonstration of DRR’s OASIS system.




                                                    20
                                                                                 APPENDIX I

•   Reviewed DRR’s training curriculum and Claims-Basic/Intermediate CBI course.

•   Verified extent of training of non-DRR staff.

•   Researched guidance related to personal service contracts, re-employment issues, and union
    implications associated with rehiring former employees.

We conducted our evaluation from May through September 2002, in accordance with the
President’s Council on Integrity and Efficiency’s Quality Standards for Inspections.




                                               21
                                                                            APPENDIX II


ACRONYMS USED IN REPORT
BOA            Basic Ordering Agreement
CAMELS         Capital Adequacy, Asset Quality, Management, Earnings, Liquidity, and
               Sensitivity to Market Risk
CBI            Computer-Based Instruction
CFO            Chief Financial Officer
COO            Chief Operating Officer
COPS           Corporate Operating Plan System
CRP            Corporate Readiness Plan
DCA            Division of Compliance and Consumer Affairs
DIR            Division of Insurance and Research
DOA            Division of Administration
DOS            Division of Supervision
DRR            Division of Resolutions and Receiverships
DRS            Division of Research and Statistics
DSC            Division of Supervision and Consumer Protection
EOI            Expression of Interest
FDIC           Federal Deposit Insurance Corporation
FRC            Financial Risk Committee
FTE            Full Time Equivalent
MSA            Metropolitan Statistical Area
OASIS          Overarching Automation System
OM             Oversight Manager
ORE            Owned Real Estate
RAC            Receivership Assistance Contract
RFA            Request for Assistance
RTG            Readiness Task Group
SOW            Statement of Work




                                        22
                                                                            APPENDIX III

DEPLOYMENT MANAGEMENT FLOWCHART

     1. DRR identifies significant
     staffing shortfall.

                                                     8. Divisions transmit names
                                                     of personnel to DRR (cc to
                                                     COO) via the Personnel
     2. DRR prioritizes workload,
                                                     Information Form.
     maximizing its internal
     resource availability.




     3. DRR initiates action to                      9. DRR on-site manager
     obtain contractors and/or                       contacts assigned personnel
     other external resources.                       to provide final closing and
                                                     travel information.


                           No

                                                     10. Assigned personnel
        Yes
                                                     arrive to assist DRR.
                       DRR documents reasoning for
                       not seeking resources and
                       forwards to COO.



                                                     11. DRR on-site manager
                                                     transmits weekly personnel
                                                     status reports on assigned
                                                     personnel.
      4. DRR prepares a Request
      For Assistance (RFA), by
      institution, identifying which
      DRR positions/ functions
      need to be filled.
                                                     12. DRR on-site manager
                                                     releases assigned
                                                     personnel to their regular
                                                     duty station.
      5. DRR transmits RFA to the
      COO (cc to Division/ Office
      Directors).



      6. COO along with
      Division/Office Directors
      identifies divisions that will
      provide personnel and the
      allocation by Division/Office.




      7. Divisions/Offices select
      and notify personnel for
      assignment to DRR.



                                              23
                                                                                                  APPENDIX IV


KEY PLAN ASSUMPTIONS AND COPS DELIVERABLES

Section 3 of the Plan listed assumptions that the RTG made in developing the CRP. Table 14
lists those assumptions and our conclusions on reasonableness when covered by the scope of our
review.

Table 14: Corporate Readiness Plan Assumptions
CRP Assumption
•   The Corporate Readiness Plan is to provide short-term support to DRR resolution and receivership activities.
    The Plan does not address closing-related functions of the Division of Finance, DOA, Division of Information
    Resources Management, Legal Division, or the Office of the Ombudsman. The non-DRR closing-related
    functions are being addressed in a separate platform analysis.

    We limited our evaluation to DRR’s Corporate Readiness Plan. We did not review the closing-related
    functions of the other divisions or offices.

•   The Plan will be implemented only for significant and unexpected increases in insured depository institution
    failure activities that exceed DRR’s existing capacity.

    We interviewed senior DRR and DSC managers who confirmed that the Plan would only be implemented in the
    event of a significant or unexpected increase in failure activity. We concluded that this assumption was
    reasonable.

•   DRR will provide the staff and expertise to perform key closing positions, such as Receiver-In-Charge, Closing
    Manager, and Closing Area Program Managers.

    We concluded that it was reasonable for DRR to maintain control over these key closing functions.

•   Before requesting interim assistance from other divisions and offices, DRR will prioritize its workload in order
    to maximize the internal resources it devotes to closing activities.

    DRR has become an organization of “generalists” and has established a mandatory training program for all
    DRR staff. This training will maximize DRR’s internal resources by making all DRR staff more prepared to
    assume the responsibility for closing activities and to monitor the performance of non-DRR personnel and
    contractors. Thus, we believe DRR’s plans to maximize internal resources before requesting resources from
    other divisions and offices is reasonable.

•   Prior to or concurrent with requesting interim assistance from other divisions and offices, DRR will initiate the
    steps to obtain external resources (contractors, term/temporary employees, etc).

    DRR and DOA have a comprehensive contracting framework in place. We verified that DRR and DOA have
    been able to award contracts for specific failures within an average of 16 days under this framework. We
    concluded that this was a reasonable assumption.




                                                         24
                                                                                                 APPENDIX IV

CRP Assumption
•   Support to DRR from other divisions and offices will be focused on the four major field activities of DRR:
    Asset Marketing, Asset Management, Receivership Operations, and Resolutions.

    DRR reviewed and categorized non-DRR position descriptions into the four major field activities listed above.
    We concluded that it was reasonable to assign temporary staff from other divisions and offices to one of the
    four major field activities.

•   Personnel temporarily assigned to DRR from other FDIC divisions will be released as quickly as feasible once
    DRR is able to deploy contractors and/or term/temporary employees to augment its permanent workforce.

    As discussed in the body of this report, DOA has been able to compete and award contracts within an average
    of 16 days for failures occurring during 2001 and 2002. We believe it is a reasonable and prudent assumption
    that non-DRR staff will be released as quickly as feasible to avoid impacting other responsibilities of the
    Corporation, such as bank supervision.

•   The "Readiness" support period that non-DRR personnel will be assigned to DRR activities is not expected to
    exceed 90 days. This period may be influenced by DRR/DOA ability to obtain external resources.

    We concluded that the 90-day timeframe is reasonable and is consistent with DRR’s policy to resolve
    institutions within 90 days.

•   Personnel assigned to assist DRR will be provided sufficient time to complete CBI- training, if necessary, prior
    to deployment.

    DRR has a mandatory program in place to train its staff and has made this training readily available to non-
    DRR staff and contractors. We concluded that DRR’s plan to provide just-in-time training was reasonable.

•   Staffing levels in key support divisions will remain at currently projected levels.

    Current core staffing estimates indicate that DRR and DSC staffing levels will remain constant through 2006.
    Accordingly, we concluded that this was a reasonable assumption. However, DRR and DSC will need to
    periodically revisit the level of staff that DSC can commit to the CRP. We did not evaluate the sufficiency of
    DRR or DSC staffing levels.

Source: Corporate Readiness Plan.



COPS Deliverables

DRR formalized the CRP as COPS project DI-CRP-06-02-00-1594. The project began in
November 2000. On September 26, 2002, the DRR Director submitted a memorandum to the
COO and indicated that the COPS project had been completed. We verified that DRR had
completed each of the COPS deliverables. Table 15 presents the COPS deliverables and dates of
completion. A brief discussion of each deliverable follows.




                                                          25
                                                                                          APPENDIX IV

        Table 15: COPS Deliverables

    Deliverable                                                          Date Completed
    •     Develop lines of authority                                     February 2001
    •     Develop employee tracking system                               March 2002
    •     Develop training plan                                          February 2001
    •     Research possibility of annuitant database                     March 2001
    •     Simulate and test Plan                                         September 2002
    •     Present plans and systems to COO and Chief Financial Officer   September 2002
          (CFO) for final approval
        Source: Interviews with DRR staff.

•   Lines of Authority: We verified that DRR had identified individual points of contact in
    Washington and in FDIC regional offices for coordinating staffing assignments if the CRP
    is activated. For DSC, each region has separate points of contact for risk management and
    compliance staff.

•   Tracking System: DRR built an additional module, called OASIS, into an existing DRR
    system. OASIS will track the assignments, locations, and status of non-DRR employees
    assigned to closing teams. OASIS was placed in production in late April 2002. We
    attended a demonstration of OASIS to observe that it was operational.

•   Training: DRR’s training program is an integral part of developing a flexible “generalist”
    staff. DRR is requiring that DRR staff complete four CBI courses annually and will
    provide non-DRR staff with the appropriate CBI course at the time that the staff is assigned
    to a closing. DRR has also developed a more involved curriculum for training staff
    assigned to the claims insurance determination function.

•   Annuitant Database: DRR researched the possibility of rehiring former employees under
    individual short-term contracts to assist in the event of Plan activation. DRR believes the
    annuitants would have a quicker learning curve than non-DRR staff and this option would
    have less of an impact on DSC’s supervision mission.

•   Simulation and Testing of Plan: DRR conducted a simulation of the Plan in
    mid-September 2002. The simulation included the Plan coordinators from the other
    Divisions. DRR reported that the simulation was a success.

•   Presentation to COO and CFO: At the time of the initial COPS project, DRR reported to
    the CFO. FDIC restructured COO and CFO duties in early 2002, and DRR now reports to
    the COO. The Plan indicated that the COO and CFO would jointly be responsible for
    activating the CRP. However, DRR officials informed us that most likely the COO would
    solely be responsible for activating the Plan. The DRR Director briefly discussed the Plan
    with the COO earlier this year. The COO recommended presenting the Plan to the FDIC
    Operating Committee. DRR presented the CRP to the Operating Committee in
    late-September 2002.


                                                       26
                                                                                                                                                                                                                                                                                 APPENDIX V

RESOLUTION AND RECEIVERSHIP CONTRACTING STRUCTURE


                                                                               D R R P r o p o se d C o n tr a cts B y F u n c tio n
                                                                                                                                      B a n k F a ilu re / R e so lu tio n
                                                                                                                                      C a ll C e n ter S e rvic es ( 1 )
                                                                                                                                      I n ve stm en t B a n k er ( 2 )
                                                                                                                                      F a ile d In stitu tio n S ta ffin g ( 3 )
                                                                                                                                      R e ce ive rsh ip A ssista n ce C o n tra c to r (4 )




                                           A ss et D a ta S ta n d a rd iz a tio n S erv ic es                                        D u e D ilig en c e & A ss e t V a lu a tio n (5 )
                                                                  (7 )
                                                                                                                                                                                                                                 In fo rm a tio n S y ste m s D e sig n & S e c u rity
                                                                                                                                               F ield Im a g in g S e r v ice s (6 )                                                             A p p lic a tio n S ec u rity S e rvic es ( 8 )
                                                                                                                                                                                                                                               B u sin e ss U sers’ S u p p o rt S erv ice s (9 )




          M a r k e tin g                                                                                  C a p ita l M a r k e ts                                                                                                                A s se t M a n a g e m e n t


L o a n S a le s                                                   S e c u ritie s S a le s F ro m                                    M B S A d m in is tra tio n                                            F ie ld O p e ra tio n s                                                  A g re e m e n ts
A sse t S a les A d v iso r (1 0 )                                    F a ile d In stitu tio n                                                                                                                                                                                         M anagem ent
C lo sin g & P o st C lo sin g                                              P o r tfo lio s
S e rvic es ( 1 1 ) [A lso S u p p o rts                                                                                         S ec u ritiza tio n o f A s sets &                           L o a n S e rv ic in g
A d d itio n a l W a sh in g to n , D C                                                                                          M an a g em en t o f R esid u a l In te res ts
                                                                  S ale a n d M a n ag e m e n t o f                                                                                          C o m m erc ia l M o rtg a g e Lo a n S e rvic in g (1 8 )                        L o ss S h a re A s sis ta n ce (3 1 )
D R R F u n c tio n s]
                                                                  C ap ita l M a rk ets In stru m en ts                          F in a n c ia l A d viso ry S erv ice s fo r                 N a tio n a l R esid e n tia l Lo a n S e rvic in g (1 9 )
                                                                  (S to c k s/B o n d s)                                         M o rtg a g e- B a ck ed S e cu ritie s (1 3 )
                                                                                                                                                                                              C o m m erc ia l (n o n - m o rtg a g e) & In d u stria l
                                                                  F in a n c ia l A d viso ry S erv ice s fo r                   S e cu ritiza tio n P e rfo rm a n ce O ve rsig h t          L o a n S erv icin g ( 2 0 )
                                                                  S e cu ritie s P o rtfo lio (1 2 )                             (14)                                                         C o n su m er L o a n S erv icin g ( 2 1 )
                                                                                                                                                                                              C red it C a rd S erv icin g ( 2 2 )
                                                                                                                                 A u d itin g o f C red it R e serv es ( 1 5 )
                                                                  S ale o f A ss e t-B a ck e d                                  S e cu ritiza tio n T ra n sa ctio n I n fo rm a tio n
                                                                  S ec u rities                                                  M a n a g em e n t a n d In v esto r
                                                                                                                                 R e p o rtin g (1 6 )
                                                                  F in a n c ia l A d viso ry S erv ice s fo r
                                                                                                                                 M B S A d m in istra tio n F in a n cia l S u p p o rt       S u b s id ia ry M a n ag e m e n t (2 3 )
                                                                  S e cu ritie s P o rtfo lio (1 2 )
                                                                                                                                 S e rvic es ( 1 7 )

                                                                                                                                                                                              O R E M an ag em e n t
                                                                  M an a g em en t/L iq u id a tio n o f
                                                                  D eriv ativ es                                                                                                              O R E T ec h n ica l S u p p o rt ( 2 4 )
                                                                                                                                 E q u ity P artn ersh ip s                                   O R E T ele m a rke tin g S erv ice s(2 5 )
                                                                  F in a n c ia l A d viso ry S erv ice s fo r
                                                                  S e cu ritie s P o rtfo lio (1 2 )                                                                                          O R E P o o l M a n a g em e n t (2 6 )
                                                                                                                                 F in a n c ia l A d viso ry S erv ice s fo r
                                                                                                                                 M o rtg a g e- B a ck ed S e cu ritie s (1 3 )               O R E P ro p e rty M a n a g em e n t (2 7 )
                                                                                                                                                                                              E n v iro n m en ta l A d v iso ry S e rvic es ( 2 8 )
                                                                                                                                                                                              P h a se I E n v iro n m en ta l ( 2 9 )
                                                                                                                                                                                              P ro p e rty T a x C o n su ltin g (3 0 )




Source: 1999 Board Case.




                                                                                                                                                           27
                                                                                   APPENDIX VI

CRITERIA FOR PERSONAL SERVICES CONTRACTS

                     FDIC ACQUISITION POLICY MANUAL
                          CHAPTER 7 - SECTION 7.F.
             MAINTAINING INDEPENDENT STATUS OF CONTRACTORS

7.F.1. Overview - The purpose of this section is to establish guidelines for maintaining the
independent status of contractor employees providing services under contracts with FDIC.

7.F.2. Applicability - The Contracting Officer and Oversight Manager must ensure that, during
performance of any contract, the services being performed by the contractor do not involve or
create an employer/employee relationship between the FDIC and the contractor's employees.
This type of situation arises when FDIC personnel provide day-to-day supervision to the
contractor's employees during contract administration. Contracts that create an
employer/employee relationship between the FDIC and the contractor are prohibited. These
situations are referred to as prohibited personal services contracts. Contracting Officers and the
Oversight Manager will monitor the contractor's efforts and review deliverables to determine
compliance with the terms and conditions of the contract, but under no circumstances shall an
FDIC employee directly supervise the contractor's employees.

7.F.3. Determining Factors - In addition to the supervision factor, the following factors should
be used to determine whether or not the administration of an existing contract has created a
prohibited employer/employee relationship. As previously mentioned, the most important factor
is the one pertaining to the supervision exercised by FDIC over the contractor personnel. The
presence of this factor alone can result in a prohibited employer/employee relationship. The
remaining factors generally carry relatively equal weight, and any final determination with
respect to a prohibited employer/employee relationship must be assessed on a case-by-case basis.

7.F.3.a. On-Site Work - Contractor employees work on site;

7.F.3.b. FDIC-Furnished Equipment - Principal tools and equipment are furnished by FDIC;

7.F.3.c. Inherently Government Functions - Work involves an inherently government
function;

7.F.3.d. Duration - Duration of the contract exceeds one (1) year; and

7.F.3.e. Comparability with FDIC Work - Comparable services that meet FDIC needs are
performed by FDIC (e.g., the contractor's employees are performing the same or similar job(s) as
FDIC employees).

7.F.4. Notification - If the Oversight Manager believes that a contract may involve prohibited
personnel services (i.e., involving an employer/employee relationship between FDIC and the
contractor's employees), the matter shall be immediately brought to the attention of the
Contracting Officer. Legal review shall be sought as necessary.


                                                28
                                                                                  APPENDIX VI

7.F.5. Contractor Employees Working On Site - In order to preserve the independent status of
contractor employees, the following precautions shall be observed:

   7.F.5.a. Work Stations - Work stations of contractor personnel should be separated from
   FDIC personnel to the maximum extent practicable;

   7.F.5.b. Identification - Contractor personnel should be required to wear badges on site,
   display appropriate office signs, or take some other measure to clearly identify them as
   contractor employees;

   7.F.5.c. Staff Meetings - Contractor employees should not be invited to attend regular staff
   meetings; and

   7.F.5.d. Recreational Activities - Generally, contractor employees may not participate in
   services or employee recreational activities (including without limitation office picnics and
   holiday parties) which are provided for the benefit of FDIC employees.




                                               29
